                     U.S. DEPARTMENT OF LABOR
                 EVALUATION OF GRANT CLOSEOUT
                       PRACTICES APPLIED TO
               JOB TRAINING PARTNERSHIP ACT GRANTS

          GRANTS AWARDED TO THE STATE OF CALIFORNIA

               INDEPENDENT ACCOUNTANTS’ REPORT
              ON APPLYING AGREED-UPON PROCEDURES




                 JULY 1, 1997 THROUGH JUNE 30, 2000




R. Navarro & Associates, Inc. prepared this report under contract to the U.S.
Department of Labor, Office of Inspector General, and by acceptance it becomes a
report of the Office of Inspector General.



                        __________________________________________
                        Assistant Inspector General for Audit
                        U.S. Department of Labor




                                                    Report No.: 04-03-019-03-340
                                                    Date Issued: May 5, 2003


                   R. NAVARRO & ASSOCIATES, INC.
                                                   TABLE OF CONTENTS



ACRONYMS .................................................................................................................................iii

INDEPENDENT ACCOUNTANTS’ REPORT ON APPLYING AGREED-UPON
PROCEDURES............................................................................................................................... 1

SUMMARY OF FINDINGS .......................................................................................................... 2

BACKGROUND, OBJECTIVES, SCOPE AND METHODOLOGY .......................................... 3

          BACKGROUND ................................................................................................................ 3

          OBJECTIVES, SCOPE AND METHODOLOGY ............................................................. 3

PROCEDURES AND FINDINGS.................................................................................................. 4

EXHIBIT I – COMPLETE TEXT OF THE STATE OF CALIFORNIA’S RESPONSE............... 7




                                                                     ii
                                  ACRONYMS



CFR    Code of Federal Regulations
DOL    U.S. Department of Labor
ETA    Employment and Training Administration
FSR    Financial Status Report
FY     Fiscal Year
JTPA   Job Training Partnership Act
OIG    Office of the Inspector General
PY     Program Year
SFY    States Fiscal Year
SEFA   Schedule of Expenditures of Federal Awards
WIA    Workforce Investment Act




                                         iii
Mr. Elliot P. Lewis
Assistant Inspector General for Audit
Office of Inspector General
U.S. Department of Labor

                       INDEPENDENT ACCOUNTANTS’ REPORT
                      ON APPLYING AGREED-UPON PROCEDURES

We have performed the procedures enumerated in the “Procedures and Findings” section of this
report. The U.S. Department of Labor (DOL), Office of Inspector General (OIG), agreed to these
procedures. We completed the procedures solely to assist OIG in evaluating the State of
California’s closeout practices for Job Training Partnership Act (JTPA) grants awarded by the
DOL Employment and Training Administration (ETA) from July 1, 1997 through June 30, 2000.

Management of the State of California is responsible for closing JTPA grants in accordance with
applicable regulations and requirements established by ETA. ETA is responsible for processing
and certifying grant closure, and recording final obligation, expenditure and payment information
in DOL’s general ledger.

This agreed-upon procedures engagement was performed in accordance with the attestation
standards established by the American Institute of Certified Public Accountants, and Government
Auditing Standards issued by the Comptroller General of the United States. The sufficiency of
these procedures is solely the responsibility of your office as the specified user of the report.
Consequently, we make no representation regarding the sufficiency of the procedures performed
either for the purpose for which this report has been requested or for any other purpose.

The results of our procedures are described in the “Procedures and Findings” section of this
report.

We were not engaged to, and did not, perform an examination, the objective of which would be
the expression of an opinion on the accompanying information obtained from the respective
entities. Accordingly, we do not express such an opinion. Had we performed additional
procedures, other matters might have come to our attention that would have been reported to you.

This report is intended solely for the information and use of the DOL, OIG, and is not intended to
be, and should not be used, by anyone other than the specified party.



June 24, 2002
                                  SUMMARY OF FINDINGS


The State of California submitted its Job Training Partnership Act (JTPA) closeout package to
the U.S. Department of Labor (DOL), Employment and Training Administration (ETA) on June
29, 2001, after requesting and receiving an extension through June 30, 2001. We identified the
final JTPA expenditures reported on the final closeout report, and found that the expenditures
reported reconciled to the State’s accounting records. In addition, the final expenditures reported
were reasonable based on data previously reported to ETA.

The JTPA program was audited as a major program in the State’s single audits for State Fiscal
Year (SFY) 1999 and SFY 2000. The SFY 2000 single audit report included two unresolved
findings pertaining to the JTPA program. In the first finding, the auditors reported that the
State’s general ledger system did not identify expenditures by Federal program, consequently, the
Schedule of Expenditures of Federal Awards was not prepared as required by Office of
Management and Budget, Circular A-133. Rather, the State prepared a Schedule of Federal
Assistance that reflected cash receipts by Federal program. This issue was included as a
reportable condition and also as a matter of emphasis in the auditor’s supplemental information
report. In another finding, the auditors reported that certain State level costs were allocated to
Federal programs based on estimates rather than on actual costs incurred.

We visited two subrecipients, and found that final expenditures reported to the State reconciled
to the subrecipients’ accounting records.

State of California’s Response

The California Employment and Development Department (EDD) provided a written response to
our draft report, dated March 10, 2003, which is included in its entirety at Exhibit I. In general,
California agreed with the information presented in the report. However, certain comments were
provided regarding the open single audit findings presented in this report. With respect to the
finding that the State cannot generate a Schedule of Expenditures of Federal Awards, EDD
commented, “This is a statewide issue that the auditors discussed with the Department of
Finance, which will address this issue in future system enhancements”. With respect to the
finding that EDD lacked documentation supporting certain payroll and operating cost allocations,
EDD commented that costs charged to allocation are considered to be direct, actual charges and
that no adjustments were necessary to the JTPA costs reported on the closeout.

Independent Accountants’ Comments

Our procedures were limited to presenting findings reported in the single audit reports that the
single auditors consider to be unresolved. We understand that management’s perspective for
these findings may differ from that of the single auditors.




                                                 2
              BACKGROUND, OBJECTIVES, SCOPE AND METHODOLOGY


Background

The JTPA was enacted in 1982 to provide job training programs which would afford
disadvantaged youth and adults with the training necessary to obtain productive employment.
The JTPA program was repealed on June 30, 2000, when ETA implemented a successor
program, authorized by the Workforce Investment Act. The closeout of active JTPA grants
began in July 1999, with final closeouts due no later than December 31, 2000. Unspent funds
from the PY 1998 and PY 1999 JTPA State grants were authorized for transition into the WIA
program.

All JTPA closeout information is sent to the DOL, ETA, Office of Grant and Contract
Management, Division of Resolution and Appeals. According to 20 CFR, Part 627.485, JTPA
grants should normally have been closed within 90 days after the time limitation for expenditure
of JTPA funds. For PY 1997 grants, the 90-day limitation expired September 30, 2000.
However, in certain instances, ETA extended the reporting beyond that specified in the program
regulations. According to instructions set forth by ETA in the JTPA Financial Closeout
Technical Assistance Guide, final JTPA financial reports for PY 1998 and PY 1999 grants should
have been submitted no later than December 31, 2000.

Objectives, Scope and Methodology

In general, our procedures were designed to determine if: the State of California closed its JTPA
grants on a timely basis in accordance with ETA instructions; amounts reported in the closeout
packages and/or the final cost reports were reasonable and supported by the State=s and
subrecipients’ accounting records; and there were unresolved audit findings pertaining to JTPA
awards.

Our agreed-upon procedures include the JTPA funds awarded to the State of California for PYs
1997, 1998 and 1999, and FYs 1997 and 1998. Procedures were applied to grant activities
reported by the State and two subrecipients, City of Los Angeles and the San Diego Workforce
Partnership Inc., on final closeout reports.




                                                3
                            PROCEDURES AND FINDINGS


1.   Identify the State’s JTPA grants to be included in the scope of these procedures, and
     the obligations and final reported expenditures related to each.

     The JTPA grants awarded to the State and included in the scope of these procedures are
     as follows.

                                                                                     Expenditures
                                 Federal        Reported           Inter-title        Including
                               Obligations     Expenditures        Transfers          Transfers
          Year and Title       Authority       Per Closeout        Per FSRs          (Computed)

      FY 97 IIB               $ 150,622,655        $150,622,654   $(25,564,865)       $ 125,057,789
      PY 97 IIA,C & III F       402,235,520         402,051,647       25,564,865        427,616,512
      PY 97 III EDWAA-D          74,212,835          74,212,835                  0       74,212,835
      PY 97 III DCAP               2,388,395          2,388,395                  0        2,388,395
      FY 98 IIB                 140,130,051         140,126,790    (26,449,188)         113,677,602
      PY 98 II & III-F          402,938,292         401,183,582       26,449,188        427,632,770
      PY 98 III EDWAA            22,250,000          19,418,579                  0       19,418,579
      PY 99 IIB & IIC           162,913,181         143,861,125        4,774,518        148,635,643
      PY 99 IIA & IIIF          405,954,295         336,751,294       (4,774,518)       331,976,776
      PY 99 III EDWAA            20,475,694           8,694,111                  0       8,694,111,
       Total                  $1,784,120,918   $1,679,311,012     $              0   $1,679,311,012

2.   Determine if the JTPA grants awarded to the State were closed on a timely basis in
     accordance with ETA instructions.

     The State of California submitted a request for extension for its closeout package through
     June 30, 2001, which was approved by ETA. The closeout was submitted to ETA on
     June 29, 2001.

3.   Inspect the closeout information reported to ETA, and determine if the information
     was reasonable in comparison with data previously reported on final FSRs.

     The State submitted final FSRs with the closeout package; consequently, the FSRs and
     the closeout were consistent. As an alternative procedure, we inspected the JTPA
     reconciliation worksheet prepared by ETA which identified the final cost entries required
     to be recorded in the DOL’s general ledger. This worksheet did not identify significant
     adjustments to previously recorded grant costs. Accordingly, the amounts reported on the
     closeout package are considered to be reasonable based on amounts previously reported
     to ETA.



                                               4
4.   Determine if amounts reported on final cost reports or on the closeout package were
     supported by the State’s accounting records.

     We compared the JTPA expenditures reported to the DOL on the closeout package to
     expenditures recorded in the State’s accounting records, and found that the amounts
     reported reconciled to the State’s accounting records.

5.   Select a sample of eight final closeout reports submitted by subrecipients to the
     State, and determine if the subrecipients’ final JTPA expenditures were accurately
     recorded in the State’s accounting records.

     We obtained closeout reports submitted to the State by eight subrecipients, and compared
     the final expenditures reflected on the closeout reports to expenditures recorded in the
     State’s accounting records. In all cases, the final subrecipient expenditures were
     accurately recorded in the State’s accounting records.

6.   Obtain the State’s single audit reports submitted for the two most recent fiscal years
     available, and identify the JTPA expenditures reported on the Schedule of
     Expenditures of Federal Awards. Determine if these funds were tested as a major
     program, in accordance with single audit requirements.

     For reasons discussed in Item 7. below, the State did not prepare a Schedule of
     Expenditures of Federal Awards in accordance with OMB A-133 requirements. Rather,
     the schedule included in the single audit reports was a Schedule of Federal Assistance,
     which reflected cash received by Federal program. We obtained the State’s single audit
     reports for SFY 2000 and SFY 1999, and identified the total JTPA cash receipts reported
     on the Schedule of Federal Assistance, $582.2 million and $613.8 million, respectively.
     The JTPA program cluster was listed as a major program for both fiscal years.

7.   Determine if the single audit reports identified reportable conditions, material
     weaknesses, report qualifications, or any other audit issues pertaining to JTPA
     grants that remain unresolved.

     The single audit report for SFY 2000 contained two findings that were not fully resolved,
     as follows:

     A.     Finding 2000-12-1 stated that: “Because of limitations in its automated accounting
            systems, the State has not complied with the provision of OMB Circular A-133
            requiring a schedule showing total expenditures for each federal program. As a
            result, the schedule beginning on page 119 [Schedule of Federal Assistance]
            shows total receipts, rather than expenditures, by program”. This problem was
            initially reported in SFY 1996.

     B.     Finding 2000-2-2 stated that: “EDD [Employment Development Department]
            lacked documentation supporting some of its payroll and operating costs allocated

                                             5
             to federal programs.” The finding goes on to state that allocations to federal
             programs were “based on estimates of the time staff spend administering the
             various federal programs instead of using actual time worked….Furthermore,
             EDD could not demonstrate that it revised the percentages quarterly to reflect
             more current circumstances, nor could it show it adjusted charges to federal
             programs to reflect actual activity.” This finding was originally reported in SFY
             1999.

8.    Obtain the final cost reports submitted by two subrecipients and determine if the
      amounts reported were supported by the subrecipients’ accounting records.

      We visited two subrecipients, the San Diego Workforce Partnership, Inc. and the City of
      Los Angeles. For each subrecipient, we compared the final JTPA expenditures reported
      to the State to expenditures recorded in the subrecipients’ accounting systems, and found
      that the amounts reconciled.

9.    Obtain the subrecipients’ single audit reports for SFY 1999 and SFY 2000 and
      identify the JTPA expenditures reported on the Schedule of Expenditures of Federal
      Awards (SEFA). Determine if the amounts agree or were reconciled by the single
      auditors to the expenditures recorded in the accounting records.

      We obtained the single audit reports for the years required and for both subrecipients
      visited, and identified the JTPA expenditures reported on the SEFA. We compared the
      SEFA expenditures to expenditures recorded in the subrecipients’ accounting records,
      and found that the amounts reconciled.

10.   Inspect the single audit reports submitted for the subrecipients and determine if
      there were reportable conditions, material weaknesses, report qualifications, or any
      other audit issues pertaining to JTPA grants that remain unresolved.

      We obtained the single audit reports for the subrecipients visited, and determined that the
      audit reports did not identify any reportable conditions, instances of nocompliance, report
      qualifications or other audit issues which pertained to the JTPA program.




                                               6
                                                                              EXHIBIT I

                         THE COMPLETE TEXT OF
                   CALIFORNIA’S RESPONSE TO THE DRAFT
                    AGREED-UPON PROCEDURES REPORT




Following this title page is the complete text of California’s response to our agreed-upon
procedures report, issued to them on February 13, 2003.




                                         7
8
9
